Before the Committee on Commerce, Science and Transportation
Subcommittee on Aviation
United States Senate



For Release on Delivery
Expected at
10:00 a.m. EDT
                          Perspectives on the
                          Progress and Actions
Tuesday
July 25, 2006
CC-2006-065

                          Needed to Address the
                          Next Generation Air
                          Transportation System


                          Statement of
                          David A. Dobbs, Assistant Inspector General
                           for Aviation and Special Program Audits
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) Joint Planning and Development Office (JPDO) and the plans for the next
generation air transportation system.

The JPDO was mandated by Congress to develop a vision for the next generation
air transportation system (NGATS) in the 2025 timeframe and coordinate diverse
agency research efforts.       This office was established within FAA; also
participating are the National Aeronautics and Space Administration (NASA), the
Department of Commerce, the Department of Defense (DOD), and the Department
of Homeland Security. Thus far, we have focused primarily on the JPDO’s air
traffic management efforts that involve NASA, DOD, and Commerce.

There are a number of compelling reasons for moving toward the next generation
air transportation system. The current air transportation system has served the
nation well, but FAA reports that the current system (or business as usual) will not
be sufficient to meet the anticipated demand for air travel. Last year, over
700 million passengers used the system, and this number is forecasted to grow to
over 1 billion by 2015.

Because of the forecasted growth in air travel, the JPDO needs to continue to work
on what can be done much sooner than the 2025 timeframe. It will also be
important for the JPDO to show tangible benefits to airspace users from its efforts.
We have made this point before, and it was a key theme of the JPDO/industry
workshop on costs in April.

The JPDO’s mission is critical given that FAA conducts little long-term air traffic
management research and the fact the most of the Agency’s current $2.5 billion
capital account goes for keeping things running. However, the cost of NGATS
remains uncertain and much work remains to refine costs, align diverse agency
budgets, and set expectations for airspace users with respect to milestones,
equipage, and anticipated benefits. In addition, FAA and JPDO need to transition
from planning to implementation, and we have identified a range of actions that
will help them do so.

My remarks today will focus on three points:

   • JPDO’s critical role in leveraging resources in light of recent trends in
     FAA’s Research, Engineering, and Development (RE&D) and Facilities
     and Equipment (F&E) accounts.

   • JPDO progress to date in aligning agency budgets and plans, and


                                                                                  1
   • Actions that will help the JPDO keep moving forward in both the short and
     long term and shift from planning to implementation.

The JPDO Has an Important Role in Leveraging Resources for the
Next Generation Air Transportation System
The JPDO is expected to develop a vision for the next generation system and has
established ambitious, much needed goals to accommodate three times more air
traffic and reduce FAA operating costs. The JPDO also expects a shift from
today’s ground-based system to an aircraft-based system and to significantly
enhance controller productivity through automation. To do so, a multi-agency
approach—as outlined in Vision 100—is critical given the current deficit
environment, competition for Federal funds, and FAA’s tight budget. Moreover,
leveraging of scarce resources is essential because FAA does not conduct much
long-term air traffic management research.

FAA’s Fiscal Year 2007 Budget Request for Research, Engineering, and
Development
FAA is requesting $130 million for fiscal year (FY) 2007, a decrease of
$6.6 million from last year’s appropriated level of $136.6 million. This includes
$18 million specifically for the JPDO. Figure 1 illustrates the makeup of the
FY 2007 RE&D request by major lines of effort.




As shown above, almost 70 percent of FAA’s research budget submission, or
$88 million, focuses on improving safety—not new air traffic management
initiatives. This includes projects on fire safety and aging aircraft systems, which


                                                                                  2
focus on preventing accidents and making them more survivable. The remaining
funds are requested for efficiency, environmental research, and mission support
efforts.

FAA is also requesting research funds from its airport account for safety and
efficiency issues. FAA is requesting $17.8 million in FY 2007 for research in
areas of, among other things, airport pavement and airport markings. In addition,
FAA is requesting $10 million in FY 2007 for cooperative research projects with
airports, including efforts to enhance safety and improve airport lighting.

Perspectives on FAA’s Capital Account and Progress and Challenges with Key
Modernization Projects

The Capital Account. FAA’s capital account—or the F&E account—is the
principal vehicle for modernizing the National Airspace System. It represents
about 18 percent of the Agency’s FY 2007 budget request of $13.7 billion. For
FY 2007, FAA is requesting $2.5 billion for the F&E account, which is
$50 million less than last year’s appropriation. This is the fourth consecutive year
that funding requests for the capital account are below authorized levels called for
in Vision 100.

As we have noted in previous reports and testimonies, FAA’s increasing operating
costs have crowded out funds for modernization. Further, only about 55 percent
of FAA’s FY 2007 request for F&E (or $1.4 billion) will actually go for acquiring
air traffic control systems, while the remainder will be spent on personnel, mission
support, and facilities. This is illustrated in Figure 2.




                                                                                  3
The majority of FAA’s capital account now goes for keeping things running (i.e.,
sustainment), not new initiatives. A review of the top 10 projects by dollar
amount in the FY 2007 request shows that while some projects will form the
platforms for future initiatives, the bulk of funds are requested for projects that
have been delayed for years and for efforts to improve or maintain FAA facilities
or replace existing radars.

Over the last several years, FAA has deferred or cancelled a number of projects as
funding for the capital account has remained essentially flat. This includes efforts
for a new air-to-ground communication system, controller-pilot data link
communications, and a new satellite-based precision landing system. FAA has
also postponed making decisions on projects like the billion-dollar Standard
Terminal Automation Replacement System.

In spite of a lack of clarity about the next generation system, FAA is requesting
F&E funds for two projects that are considered “building blocks” for the next
generation system. These are not new programs and have been under
development or been funded in previous budgets.

      • Automatic Dependent Surveillance-Broadcast (ADS-B) is a satellite-based
        technology that allows aircraft to broadcast their position to others. In
        FY 2007, FAA is requesting $80 million for this. In prior budgets, ADS-B
        was funded under the Safe Flight 21 Initiative, which demonstrated the
        potential of ADS-B and cockpit displays in Alaska and the Ohio River
        Valley. FAA expects to award a contract for the ADS-B ground
        infrastructure in 2007. FAA has a lot of work ahead to quantify and set
        expectations for the benefits it and airspace users can expect from ADS-B. 1
        Airspace users will have to equip with new avionics to obtain benefits, and
        FAA may have to rely on a rulemaking initiative to help speed equipage.
        This illustrates why the JPDO must address complex policy issues as well
        as research.

      • System Wide Information Management (SWIM) is a new information
        architecture that will allow airspace users to access securely and seamlessly
        a wide range of information on the status of the National Airspace System
        and weather conditions. It is analogous to an internet system for all
        airspace users. FAA is requesting $24 million for this program in FY 2007.

1
    The first phase of ADS-B implementation, known as ADS-B out is expected to replace many ground radars that
    currently provide surveillance with less costly ground-based transceivers. But implementing ADS-B out is just the
    first step to achieving the larger benefits of ADS-B, which would be provided by ADS-B in. ADS-B in would allow
    aircraft to receive signals from ground-based transceivers or directly from other ADS-B equipped aircraft— this
    could allow pilots to “see” nearby traffic and, consequently, transition some responsibility for maintaining safe
    separation from the controllers to the cockpit.


                                                                                                                   4
Progress and Challenges with Key Air Traffic Control Modernization
Projects. We are not seeing the massive cost growth and schedule delays we have
seen with FAA major acquisitions in the past because of this administration’s
more incremental approach to major acquisitions and decisions to defer several
complex and challenging efforts.

Last year, we reported that 11 of 16 major acquisitions accounted for cost growth
of $5.6 billion. 2 Most of this cost growth occurred before the establishment of the
Air Traffic Organization. The cost growth was also a reflection of efforts to
re-baseline programs, which identified costs that had been pent up for years and
were not reflected in prior cost estimates. We are updating our work on the
16 major acquisitions and the challenges they face.

Many efforts are maturing, and completing them within existing cost and schedule
parameters is critical to allow room for future initiatives. Only one ongoing
modernization project, FAA Telecommunications Infrastructure, has the potential
to reduce FAA’s operating costs, which is a top priority within the Agency. We
would like to highlight two multi-billion-dollar programs that require attention.

      • En Route Automation Modernization (ERAM) is intended to replace the
        Host computer network—the central nervous system for facilities that
        manage high-altitude traffic. FAA is requesting $375.7 million for ERAM,
        which is this program’s peak single-year funding level according to FAA’s
        Capital Investment Plan. With an acquisition cost of $2.1 billion, this
        program continues to be one of the most expensive and complex
        acquisitions in FAA’s modernization portfolio. The monthly burn rate for
        ERAM will increase from $28 million a month in FY 2006 to $31 million
        per month in FY 2007. This year is critical for ERAM because the system
        is scheduled to begin real-world testing. Should ERAM experience cost
        increases or schedule slips, the problems would have a cascading impact on
        other capital programs and directly affect the pace of efforts to transition to
        the next generation system.

      • FAA Telecommunications Infrastructure (FTI).       FAA is requesting
        $28 million in FY 2007 toward its effort to replace its entire
        telecommunications system for air traffic control, including radar and
        controller voice circuits. Between FY 2003 and FY 2006, the Congress


2
    OIG Report Number AV-2005-061, “Report on the Status of FAA’s Major Acquisitions: Cost Growth
    and Schedule Delays Continue To Stall Air Traffic Modernization,” May 26, 2005. OIG reports and
    testimonies can be found on our website: www.oig.dot.gov.


                                                                                                 5
         appropriated $556 million for FTI (from the capital and operating
         accounts).

         In our recent report to FAA, we concluded that FTI is a high-risk
         program—with a FAA reported lifecycle cost estimate of $2.4 billion ($310
         million estimated acquisition costs and $2.1 billion estimated operations
         costs) through 2017. 3 Only months after being re-baselined in December
         2004, the program fell behind its revised schedule and has not recovered.

         The primary purpose of the FTI program is to lower operating costs. It also
         forms the basic infrastructure for NGATS initiatives, like SWIM, and is
         important for FAA’s ongoing work with Lockheed-Martin on flight service
         stations. However, expected benefits from reducing operating costs are
         eroding because of schedule problems. For example, FAA did not realize
         $32.6 million in expected savings in FY 2005 (due to the limited progress
         made in disconnecting legacy circuits). In addition, the estimated cost
         savings of $102 million for FY 2006 is at risk.

         In our April report, we found that FTI was not likely to meet its planned
         completion date, December 2007, because FAA had not developed a
         detailed, realistic master schedule for all critical steps, including identifying
         when each service will be accepted, when services will be cut over to FTI,
         and when existing (legacy) services will be disconnected. Without a
         realistic master schedule, it will be difficult to obtain a binding commitment
         from the FTI contractor, Harris Corporation, to complete the transition by
         any specific point in time.

         We recommended, among other things, that FAA develop both a master
         schedule and an effective FTI transition plan and validate FTI cost,
         schedule, and benefits. FAA agreed with our recommendations and
         commissioned the MITRE Corporation 4 to conduct an independent
         assessment of FTI’s schedule and transition performance to date.

         MITRE completed a limited assessment of FTI schedule risk and concluded
         FTI will not be completed as planned in December 2007, but is more likely
         to be completed later in 2008. Also, MITRE underscores the need to focus
         Harris’ resources and FAA’s field resources on achieving timely cutovers
         and increased disconnects of legacy services, both of which are important
         for realizing cost-savings. However, we have observed that a significant
         number of FTI services that have been accepted by FAA could not be

3
    OIG Report Number AV-2006-047, “FAA Telecommunications Infrastructure Program: FAA Needs To
    Take Steps To Improve Management Controls and Reduce Schedule Risks,” April 27, 2006.
4
    The MITRE Corporation functions as FAA’s federally funded research and development center.


                                                                                             6
      cutover, thus requiring considerable re-work and causing an increased
      backlog.

      We are currently reviewing FAA’s effort to develop an effective transition
      plan and a realistic master schedule. We note that FAA’s Joint Resources
      Council—FAA’s decision-making body for major acquisitions—is
      planning to meet in August 2006 to review revised FTI cost estimates
      against a newly validated schedule. We see several key issues that FAA
      needs to address. They include determining the number of existing legacy
      circuits and the funding requirements needed to maintain those circuits until
      FTI is complete, improving coordination between Harris and FAA field
      offices, and updating cost and benefits based on actual and projected legacy
      and FTI network costs.

It is important to recognize that FAA’s existing investments will heavily influence
NGATS requirements and schedules. In fact, ongoing projects, like ERAM and
FTI, will form important platforms for JPDO initiatives. Enclosure A provides
details on selected modernization projects that will likely play a key role in
moving toward the next generation system. FAA will have to assess how JPDO
plans affect ongoing projects and determine which ones need to be accelerated or
re-scoped.

Progress Is Being Made in Coordinating Diverse Agency Efforts but
Considerable Work Remains To Align Agency Budgets and Plans
The law requires the JPDO to coordinate and oversee research that could play a
role in NGATS. Central to the JPDO’s mission—and making it an effective multi-
agency vehicle—is alignment of agency resources. This is a complex task, and the
law provides no authority for the JPDO to redirect agency resources. Enclosure B
provides information on potential agency contributions to the JPDO and each
agency’s area of expertise.

The Department has played an important role in coordinating various efforts by
chairing the Senior Policy Committee. This committee was established by
Vision 100 and includes deputy secretary level representatives from the
Departments of Commerce and Homeland Security, and the Secretary of the Air
Force. It also includes the FAA and NASA Administrators. This committee
provides high-level guidance, resolves policy issues, and identifies resource needs.
Each participating agency conducts research tailored for its specific mission.

The JPDO’s March 2006 progress report to Congress outlined various
accomplishments to date, including the establishment of multi-agency teams and
the NGATS institute (a mechanism for interfacing with the private sector) as well


                                                                                  7
as a demonstration of network-enabled operations for security purposes.
However, the report did not provide details on specific ongoing research projects
at FAA or funding that the JPDO expects to leverage at other agencies. Without
this information, it is difficult to assess progress with alignment of budgets.

The majority of JPDO’s work is done through eight Integrated Product Teams
(IPTs) that focus on eight strategies, such as how to use weather information to
improve the performance of the National Airspace System. The teams are
composed of members from FAA, other Federal agencies, and the private sector.
Enclosure C provides information on the JPDO’s IPTs.

The National Research Council recently examined JPDO plans and was critical of
the IPT structure. 5 The Council’s report found that even though the teams have
multi-agency participation, they are functioning primarily as experts in specific
disciplines rather than as cross-functional, integrated, multidisciplinary teams
organized to deliver specific products. One of the report’s recommendations was
that the IPTs be reduced in number and made more “product driven.” Although
we have not reached any conclusions on how to best structure the IPTs, we do
agree that a more product-driven focus would be an important step forward.

Our audit work on three IPTs shows that there is considerable coordination but
little alignment of agency budgets to date. Moreover, the IPT leaders have no
authority to commit agency resources to JPDO efforts and often have no products
other than plans. The following illustrates progress and challenges to date with the
three IPTs we examined in detail.

      • The Weather IPT is led by the National Oceanic Atmospheric
        Administration (NOAA), an agency of the Department of Commerce.
        FAA, NASA, DOD, and NOAA are all conducting weather research
        tailored for their specific missions. Thus far, this team’s efforts have
        focused on contributions to FAA’s Traffic Flow Management Program
        (which assists traffic managers to optimize air traffic by working with
        airlines). NOAA is also helping the JPDO refine its concept of a fully
        automated system. Integrating new, up-to-date weather forecast systems
        into planned automation efforts will be challenging.

          We note that JPDO has not yet determined if a considerable amount of
          applied research and development conducted by NOAA at the Office of
          Atmospheric Research and the National Environmental Satellite Data and
          Information Service could be leveraged for next generation initiatives. We

5
    National Research Council, “Technology Pathways Accessing the Integrated Plan for a Next Generation
    Air Transportation System,” 2005.


                                                                                                      8
          have shared our concerns about taking full advantage of weather research
          conducted by others with the JPDO, which recognizes it can do a better job.

      • The Shared Situational Awareness IPT is led by DOD. All participating
        agencies are adopting network-centric systems. 6 As noted earlier, FAA is
        developing its own network system called SWIM. While there are
        considerable opportunities for leveraging net-centric efforts, there is also
        potential for duplication of effort. Challenges here focus on taking an
        approach pioneered by DOD and applying it specifically to air traffic
        control to get benefits in terms of enhanced capacity and delay reduction.

          An active role by DOD is vital because it is both a provider and a consumer
          of air traffic services. Thus far, work with this IPT has focused almost
          exclusively on maximizing agency network capabilities in DOD, such as
          the Global Information Grid, which is a net-centric communication system
          DOD is developing for global use. Moreover, DOD’s real-world
          experiences and the lessons it has learned in sharing data (from air and
          ground systems) in actual operations and in real-time have not been fully
          tapped and will prove invaluable in reducing cost and technical risks in
          developing the next generation system.

          Another area where DOD could provide expertise is with sensor fusion7
          which is the integration of information on an aircraft’s position from radar
          and non-radar sources, such as satellite-based systems. While fusion could
          help reduce separation between aircraft, it will be technically challenging to
          integrate radar and satellite-based systems (which have different update
          rates and levels of accuracy) to manage traffic in high volume airspace,
          particularly in the vicinity of airports. DOD expertise with target
          acquisition and sensor fusion for weapons targeting could prove helpful for
          the JPDO.

      • The Air Traffic Management IPT is led by NASA. It is expected to play a
        key role by helping develop the automated systems to boost controller
        productivity. The bulk of this work will be funded by NASA, which has
        conducted the majority of long-term air traffic management research over
        the last few years. 8 FAA has neither planned nor budgeted for this type of

6
    A net-centric system uses internet protocols to transfer data.
7
    For additional views on sensor fusion or fusion tracking see our audit report “Terminal Modernization:
    FAA Needs To Address Its Small, Medium, and Large Sites Based Upon Cost, Time, and Capability”
    (AV-2005-016, November 23, 2004).
8
    For additional details on the FAA/NASA relationship and funding profiles, see our testimony entitled
    “Observations on the Progress and Actions Needed To Address the Next Generation Air Transportation
    System,” (CC-2006-032, March 29, 2006).


                                                                                                        9
      research. Major challenges focus on establishing requirements and gaining
      a full understanding of the risks associated with developing and acquiring
      these new software-intensive systems before making financial
      commitments. This is important because future automation efforts will be a
      major cost driver for the next generation system.

      Even though NASA is restructuring its aeronautical research program and
      spending less than in the past, the JPDO and NASA are working on several
      complex concepts for new automation systems (for monitoring multiple
      aircraft trajectories, tracking separation minima, and responding to weather
      events) and the timing of research efforts. This work will be funded
      through NASA efforts on airspace systems (with a FY 2007 requested
      funding level of $120 million). However, experience shows that NASA
      will need a much clearer picture of FAA’s requirements (i.e., performance
      parameters for new automated systems) to better support the next
      generation system.

Several Actions Are Critical for the JPDO To Make Progress in Both
the Short and Long Term and Make the Transition From Planning to
Implementation
Key questions for FAA and the JPDO to focus on include what the new office can
deliver, when, and how much this transition will cost. They are central questions
in the discussion about how to best finance FAA and will shape the size,
requirements, and direction of the capital program for the next decade.

Moving to the next generation system is important to meet the demand for air
travel, change the way FAA provides services, and help control operating costs.
However, it is also a high-risk effort. To make progress and successfully shift
from planning to actual implementation, several steps are needed.

   • Leadership. The position of the JPDO Director is currently vacant—FAA
     needs to find the right person to lead this effort. Leadership will be
     important to align diverse agency efforts and bridge the gap between the
     Air Traffic Organization’s (ATO) near-term planning horizon and the
     JPDO’s longer-term mission to transform the National Airspace System.
     We understand that FAA is interviewing candidates and will be making a
     selection very soon.

   • Finalizing Cost Estimates, Quantifying Expected Benefits, and Developing
     a Roadmap for Industry. The JPDO’s progress report to Congress did not
     address funding requirements and complex transition issues. Moving to the
     next generation system will require significant investments from FAA (new


                                                                               10
ground systems) and airspace users (new avionics). FAA is conducting
workshops with industry to develop program costs.

We have seen some preliminary estimates developed by the ATO and a
working group of FAA’s Research, Engineering, and Development
Advisory Committee (REDAC), but they have not been finalized or
approved by senior FAA management. There are considerable unknowns,
and costs depend on, among other things, performance requirements for
new automation and weather initiatives and to what extent FAA intends to
consolidate facilities. The following Figure illustrates a very preliminary
estimate of the implications for FAA’s capital account from FY 2007
through FY 2012—the focus of the FAA reauthorization—from the April
JPDO/Industry workshop.

                              Figure 3. Preliminary Cost Estimates for NGATS Impact
                                    on Current FAA F&E Account FY 2007- 2012

                           4000.0
      Dollars (Millions)




                           3500.0                                       CIP Funded Programs

                           3000.0

                           2500.0                                       Estimated
                                                                        Adjustments for
                           2000.0                                       NGATS and Existing
                                                                        Programs
                                    2007 2008 2009 2010 2011 2012
                                             Fiscal Year

   Source: FAA Cost Projection Briefing, presented by Air Traffic Organization—Planning at the
   April 28, 2006 JPDO/Industry Cost Workshop


These ATO estimates presented that moving forward with NGATS would
cost $4.4 billion between FY 2007 and FY 2012 over and above the current
CIP plan. These preliminary numbers do not distinguish between
development efforts, adjustments to existing programs, or implementation
of new initiatives.

A key short-term cost factor for NGATS is the level of development
funding that will be required to take efforts from other agencies (like
NASA) and successfully transition them into the National Airspace System
and meet FAA’s safety and certification requirements. The REDAC
working group is raising concerns about this in light of NASA’s
restructuring of its aeronautics research portfolio and plans to focus on
more basic research. To accommodate changes in NASA investments, the


                                                                                                 11
   REDAC working group estimated in its draft report that the JPDO will need
   approximately $100 million annually for development.

   FAA will have to analyze information from the JPDO/industry workshops
   and the REDAC working group and provide Congress with expected
   funding requirements and when the funding will be needed. When
   transmitting this information to Congress, FAA should provide cost data on
   three vectors—research and development needed (including demonstration
   projects), adjustments to existing projects and estimates for implementing
   NGATS initiatives. This will give decision-makers a clear understanding
   of NGATS costs.

   An important theme from the recent JPDO workshop was the need for FAA
   to clearly define the expected benefits from NGATS initiatives, particularly
   for projects that require airspace users to install and equip with new
   avionics, such as ADS-B. Airspace users have a much shorter horizon for
   the return on investment from new systems than FAA, and incentives (i.e.,
   tax incentives, financing options, or targeted deployments for users that
   equip early) will likely be needed to spur equipage.

   At the April workshop, industry participants asked FAA for a “service
   roadmap” that (1) specifies required equipage in specific time increments,
   (2) bundles capabilities with clearly defined benefits and needed
   investments, and (3) uses a 4- to 5-year equipage cycle that links with
   aircraft maintenance schedules. It will be important for FAA to provide
   industry with this information.

• Establishing Connectivity Between JPDO Plans and ATO Efforts. This is
  important because the JPDO, as currently structured, is a planning and
  coordinating organization, not an implementation or program-execution
  office. At the April JPDO/industry workshop, industry asked for a much
  stronger link between ATO and JPDO plans.

   Although the JPDO’s progress report discusses new capabilities such as
   ADS-B and SWIM, the ATO is responsible for managing those efforts and
   establishing funding levels, schedule, and performance parameters. The
   ADS-B and SWIM projects are not yet integrated into ongoing
   communications and automation efforts but need to be. If the JPDO and
   ATO are not sufficiently linked and clear lines of accountability are not
   established, cost and schedules for NGATS will not be reliable and
   expected benefits will be diminished or postponed.




                                                                            12
         Linking JPDO and ATO efforts is challenging because NGATS projects cut
         across the ATO’s different lines of business (i.e., terminal and en route) and
         will require adjustments to ongoing projects managed by different ATO
         vice presidents.

         For example, SWIM is envisioned as an Agency-wide effort, and planning
         documents show that SWIM will interface with at least 12 ongoing
         projects, including FTI which is managed by the Vice President for
         Technical Operations. Also, SWIM will need to be integrated with ongoing
         projects to revamp systems for controlling high-altitude traffic managed by
         the Vice President for En Route and Oceanic Services. Projects managed
         by the Vice President for Terminal Services (to modernize both controller
         displays used in the vicinity of airports and weather systems) will also be
         affected. It will be important to establish clear lines of accountability for
         linking JPDO efforts to ATO programs and resolving differences between
         the two organizations.

         We shared our concerns about effectively linking the JPDO and ATO and
         establishing clear lines of accountability with the Chief Operating Officer
         and the Acting Director for ATO Planning earlier this year. They recognize
         the need for close coordination and are examining ways to better link the
         two organizations. One step that is underway is to adjust the Operational
         Evolution Plan (the Agency’s capacity blueprint) to reflect JPDO efforts.
         This is an important matter that will require sustained management
         attention.

     • Developing and Implementing Mechanisms for Alignment. As noted
       earlier, there is considerable coordination among JPDO participating
       agencies but little alignment of budgets and plans. There is a need for
       mechanisms to help the JPDO align different agency efforts over the long
       haul. This will help identify the full range of research that can be leveraged
       by the JPDO—not how much NGATS will cost to implement.

         The JPDO recognizes that more needs to be done and is working with the
         Office of Management and Budget (OMB) to develop an integrated budget
         document that provides a single business case (a document similar to the
         “OMB Exhibit 300”) to make sure efforts are indeed aligned. 9 As part of
         this, the JPDO has promised to provide OMB this summer with an
         architecture for the next generation system, as well as a specific list of
         programs in other agency budgets it intends to leverage.

9
    OMB Exhibit 300 was established by OMB as a source of information on which budgetary decisions
    could be based so that they are consistent with Administration and OMB policy and guidance.


                                                                                               13
          The JPDO’s ongoing efforts to develop an enterprise architecture, 10 or
          overall blueprint for the next generation system, will help in setting goals,
          supporting decisions, adjusting plans, and tracking agency commitments.
          The architecture will also show requirements from FAA and the
          Departments of Defense and Homeland Security and where various agency
          efforts fit in the next generation system. It will prove helpful in the future
          in resolving difficult policy decisions, including who pays for what
          elements of the system.

          The JPDO is taking an incremental approach to architecture development
          and plans to have an initial version this summer. However, considerable
          work remains to link current systems with future capabilities and develop
          technical requirements, particularly for new concepts for automation.

          Until these actions are taken, it will be difficult for the Congress and
          aviation stakeholders to determine if the JPDO is leveraging the right
          research, if funding is adequate for specific efforts, or how projects will
          improve the US air transportation system and at what cost. Therefore, we
          think the JPDO should include in its periodic reports to Congress a table of
          specific research projects with budget data for FAA developmental efforts,
          as well as budget data of other agencies it is leveraging and how that
          ongoing research is supporting the JPDO.

      • Developing Approaches for Risk Management and Systems Integration.
        Given that the transition to NGATS is a high-risk effort potentially
        involving billions of dollars, the JPDO and FAA need to articulate how
        problems that affected past modernization efforts will be mitigated and
        what specific skill sets will be required. The JPDO’s recent progress report
        did not address this issue.

          The central issue focuses on what will be done differently from past
          modernization efforts with NGATS initiatives to ensure success and deliver
          much needed benefits to FAA and airspace users. FAA faces a wide range
          of risks, such as complex software development and complex systems
          integration and engineering challenges with NGATS initiatives and existing
          FAA projects.




10
     Enterprise architecture links an organizations strategic plan to the programs and supporting systems in
     terms of interrelated business processes, rules, and information needs. This includes the transition from
     the “as-is” to the “to-be” environment.


                                                                                                          14
   To help manage the transition to the next generation system, FAA is
   considering whether or not a lead systems integrator—a private contractor
   who would help link new and existing systems and help manage other
   contractors—will be required. DOD has relied on this approach to guide its
   development of complex weapon systems. Models for using a lead system
   integrator throughout the Government differ with respect to roles and
   responsibilities. We note that FAA has relied on systems engineering and
   integration contractors in the past to help integrate modernization projects,
   but questions about the roles, responsibilities, and expected costs will need
   to be examined before a decision is made.

• Clarifying and Updating Approaches for Industry Participation as the JPDO
  Evolves. The JPDO established the NGATS institute specifically to allow
  for industry participation in shaping the next generation air traffic
  management system. Currently, industry representatives are participating
  in JPDO IPTs. For example, the JPDO’s progress report noted that over
  140 industry and private sector participants (from 66 organizations) are
  involved in IPT planning efforts.

   Industry has expressed concern that participation in JPDO activities might
   preclude them from bidding on future FAA acquisitions related to NGATS
   because it may create an organizational conflict of interest. Generally
   speaking, FAA’s Acquisition Management System precludes contractors
   from competing on production contracts if the contractor either participated
   in or materially influenced the drafting of specifications to be used in future
   acquisitions for production contracts or had advanced knowledge of the
   requirements.

   FAA is aware of industry’s concern and is working to ensure that industry
   participation does not result in organizational conflicts of interest.
   Recently, the JPDO revised the contracting mechanism with the institute to
   address this issue. Specifically, the JPDO and the institute have committed
   to develop procedures related to organizational conflict of interest concerns,
   and methods to avoid them. Putting these procedures in place will help get
   and sustain the desired expertise from industry and help prevent problems
   in the future.

   We think the JPDO needs to continue to foster awareness of potential
   conflicts of interest among IPTs and its contractors to identify information
   that might later lead to conflicts of interest.      It will be particularly
   important for FAA and the JPDO to monitor these matters as the role of the
   JPDO evolves and various efforts shift from planning to implementation.



                                                                               15
• Examining and Overcoming Barriers to Transforming the National
  Airspace System That Have Affected Past FAA Programs. Our work on
  many major acquisitions shows the importance of clearly defined transition
  paths, having expected costs (for both FAA and airspace users), and
  determining benefits in terms of reduced delays. This is particularly the
  case for initiatives that require airspace users to equip with new avionics.

   For example, FAA cancelled the controller-pilot data link communications
   program specifically because of uncertain benefits, concerns about user
   equipage, cost growth, and the impact on the Agency’s operations account.
   The inability to synchronize data link with other modernization efforts,
   such as the multi-billion-dollar ERAM program, was also a factor.

   Other important barriers to be overcome include how to ensure new
   systems are certified as safe for pilots to use and getting the critical
   expertise in place at the right time. Problems with FAA’s multi-billion-
   dollar Wide Area Augmentation System were directly traceable to problems
   in certifying the new satellite-based navigation system.

   FAA’s certification workforce has participated in IPT meetings, but
   considerable work remains to determine how air and ground components
   will be certified and the corresponding impact on requirements. This is a
   complex task. We agree with industry that FAA’s certification workforce
   needs to be actively engaged with JPDO initiatives.

• Developing a Strategy for Technology Transfer. Technology transfer—the
  movement of technology from one organization to another—is a central
  issue for the JPDO because the law envisions new capabilities developed
  by other Federal agencies (or the private sector) being transitioned into the
  National Airspace System. The JPDO will have to pay greater attention to
  this matter as it moves forward to reduce development times with NGATS
  initiatives.

   Our past work shows that FAA has experienced mixed results in
   transitioning systems developed by others into the National Airspace
   System. For example, FAA ultimately abandoned work on a new controller
   tool developed by NASA (the Passive Final Approach and Spacing Tool)
   for sequencing and assigning runways to aircraft because of complex
   software development and cost issues.

   As we noted in our review of FAA’s Free Flight Phase 1 Program, the use
   of “technology readiness levels” could be useful to help assess maturity of



                                                                            16
          systems and ease issues associated with the transfer of technology.11 Both
          NASA and DOD have experience with categorizing technical maturity.
          This could help reduce cost, schedule, and technical risk with implementing
          JPDO initiatives.

      • Conducting Sufficient Human Factors Research To Support Anticipated
        Changes. The JPDO is planning to make fundamental changes in how the
        system operates and how controllers manage traffic to accommodate three
        times more aircraft in the system. Currently, the union that represents
        controllers is not yet participating in JPDO efforts for a variety of reasons
        but needs to be.

          History has shown that insufficient attention to human factors can increase
          the cost of acquisition and delay much needed benefits. For example,
          problems in the late 1990s with FAA’s Standard Terminal Automation
          Replacement System were directly traceable to not involving users early
          enough in the process.

          The need for focused human factors research extends well beyond the
          traditional computer-machine interface (such as new controller displays)
          and has important workforce and safety implications. For example, FAA
          expects the controller’s role to change from direct, tactical control of
          aircraft to one of overall traffic management. There also will be significant
          human factors concerns for pilots, who will be expected to rely more on
          data link communications. It will be important to have sufficient human
          factors analysis and studies to ensure that the changes envisioned by the
          JPDO can be safely accommodated.

                                                - - -

Mr. Chairman, that concludes my statement. I would be happy to answer any
questions you or other members of this Subcommittee might have.




11
     OIG Report Number AV-2002-067, “Free Flight Phase 1 Technologies: Progress to Date and Future
     Challenges,” December 14, 2001.


                                                                                                     17
                                                                           Enclosure A
                                                                            Page 1 of 2
Key Platforms

       System                                Status and Key Issues
 Terminal                  FAA has struggled with how to complete terminal
 Modernization:            modernization. STARS, which so far has cost $1.3 billion for
 Standard Terminal         only 47 sites, was envisioned as the centerpiece of terminal
 Automation                modernization. Because of technical problems and schedule
 Replacement System        delays with STARS, FAA decided to deploy another system,
 (STARS), Common           Common ARTS, as an interim solution at over 140 facilities in
 Automated Radar           several configurations. FAA is rethinking its approach to
 Terminal System           terminal modernization and recently decided to field STARS to
 (Common ARTS):            only five additional sites. A decision affecting the remaining
 Controller work-          100-plus sites has been postponed for over a year. FAA needs
 stations that process     to address problems with aging displays at four large sites,
 surveillance data and     including Chicago and Denver, and resolve how it will
 display it on the         complete terminal modernization and what additional
 screen to manage air      capabilities will be needed as it works with the JPDO.
 traffic in the terminal
 environment.
 En Route                  With an estimated cost of $2.1 billion, ERAM is one of the
 Automation                largest and most complex acquisitions in FAA’s modernization
 Modernization             portfolio. Progress is being made with the first ERAM
 (ERAM):                   deliverable—a backup system for the Host computer.
 Replaces the Host         However, the bulk of the work focuses on development of the
 computer hardware         first major ERAM software release, which involves developing
 and software              over 1 million lines of code. A number of new capabilities
 (including the Host       (e.g., dynamic airspace management and data link) depend on
 backup system) and        future enhancements to ERAM that have yet to be defined or
 associated support        priced.
 infrastructure at
 20 En Route Centers.
                                                                         Enclosure A
                                                                          Page 2 of 2
Key Platforms (continued)

      System                               Status and Key Issues
 FAA                    FTI is FAA’s effort to transition from multiple telecom-
 Telecommunications     munication networks to a single new network for the purpose
 Infrastructure         of reducing operating costs at more than 4,400 facilities. As of
 (FTI): Replaces        May 31, 2006, FAA reported 5,925 FTI services completed
 existing telecom-      with 14,555 remaining. According to a recent MITRE study,
 munications networks   FTI is not likely to be completed by December 2007.
 with one new           Moreover, FAA is still in the process of determining the
 network.               number of existing service requirements that will need to be
                        maintained until FTI is complete. As a result, expected FTI
                        benefits with respect to savings are eroding. Key issues for
                        FAA include developing an effective transition plan and
                        realistic master schedule, negotiating a contract extension for
                        the existing legacy system with Verizon, and revising and
                        validating FTI cost and benefit estimates.
 Traffic Flow           Traffic Flow Management Infrastructure products and services
 Management (TFM)       are designed to support the Traffic Management Specialists and
 modernizes the         Traffic Management Coordinators to optimize air traffic flow
 hardware and           across the National Air Space System. The specialists and
 software used to       coordinators analyze, plan, and coordinate air traffic flow
 manage the flow of     through continuous coordination with the airlines and the use
 air traffic.           of surveillance sources, weather information, automation, and
                        display subsystems.
                                                                     Enclosure B
                                                                          Page 1
Potential Agency Contributions

The following table provides perspectives on the wide range of research being
conducted at agencies that participate in the JDPO for their specific missions. We
note that only some of the ongoing research will be applicable to the JPDO’s
efforts.

   Agency                              Key Area of Leverage
 DOD              DOD has an extensive and diverse Research and
                  Development (R&D) base, including research in new aircraft,
                  composites, imaging systems, and data exchange systems for
                  all services. DOD has requested $73 billion overall for R&D
                  in FY 2007. The JPDO is particularly interested in DOD’s
                  broadband communication networks, such as the Global
                  Information Grid. DOD planned upgrades to the Global
                  Positioning System Constellation will be critical to civil
                  aviation.
 Commerce /       Commerce is requesting $1.1 billion for research in FY 2007.
 NOAA             NOAA is a part of Commerce and is responsible for the
                  National Weather Service; the National Environmental
                  Satellite, Data and Information Service; and Oceanic and
                  Atmospheric Research. NOAA requested $533 million in
                  FY 2007 for R&D. The JPDO is seeking from NOAA
                  probability weighted forecast capabilities, a national uniform
                  weather database of forecasts and observations, and
                  transparent automatic adjusted traffic management for
                  weather.
 NASA             For years, NASA has conducted the majority of long-term Air
                  Traffic Management research, including automated controller
                  tools and human factors work. NASA has requested
                  $724 million for aeronautical R&D in FY 2007. The JPDO is
                  looking to NASA to develop automated aircraft metering and
                  sequencing and dynamic airspace reconfiguration.
 Department       DHS contributes expertise in the areas of security and net-
 of Homeland      centric initiatives. The Agency has requested $1 billion in
 Security         FY 2007 for Science and Technology R&D. FAA is looking
 (DHS)            to DHS to develop automated passenger and cargo screening,
                  hardened aircraft security, and flight control overrides.
                                                                     Enclosure C
                                                                          Page 1
Integrated Product Teams

IPTs are multi-agency teams that are defining the specific concepts and
capabilities and are coordinating the actions necessary to make possible the
transformation in each of the eight strategies articulated in the NGATS Integrated
Plan. The following provides a listing of the JPDO’s IPTs and the agency
responsible for leading each team.

      1. Develop Airport Infrastructure To Meet the Future Demand – led by
         FAA
      2. Establish an Effective Security System Without Limiting Mobility or
         Civil Liberties – led by DHS
      3. Establish an Agile Air Traffic System – led by NASA
      4. Establish User-Specific Situational Awareness – led by DOD
      5. Establish a Comprehensive Proactive Safety Management Approach –
         led by FAA
      6. Develop Environmental Protection That Allows Sustained Aviation
         Growth – led by FAA
      7. Develop a System-Wide Capability To Reduce Weather Impacts – led
         by Commerce/NOAA
      8. Harmonize Equipage and Operations Globally – led by FAA
